WAIVER

Supreme Court, U.S.
FILED

MAY 0 3 2021
Supreme Court of the United States

OFFICE OF THE CLERK

No. 20-1447
Kenneth R. Kunzer
(Petitioner)

V.

Lisa A. Hiniker, et al.
(Respondents)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
Ei

I only represent some respondents. I am filing this waiver on behalf of the following
respondent(s):

Meier, Kennedy & Quinn, Chartered; Charles M. Bichler, Esq;
John C. Gunderson, Esq.
Please check the appropriate box:
0

I am a' member of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)

gi

I am not presently a member of the Bar of this Court. Should a response be requested, the
response will be filed by a Bar member. (Filing Instructions: Mail the original signed form
tt Clerk's ffice, 1 First Street, NE, Washington, D.C. 20543).
to: Supreme Co

Signature
Date: Apr i 1 29, 2021
(Type or print) Name John C. Gunderson
❑ Ms.
El Mr.
Firm

0 Mrs.

0 Miss

Meier, Kennedy & Quinn, Chartered

Address 445 Minnesota Street, Suite 2200, Town Square Tower
City & State St. Paul, Minnesota
Phone 651-223-5483

Email

Zip 55101

JGunderson@mkglaw.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENTS) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.

cc:

Kenneth R. Kunzer

RE6E1VED
MAY 1 1 2021
OFFICE OF THE CLERK
SUPREME CORT, U.S.

